     SYMPOSIUM ON DRUG UTiliZATION
            REVIEW ISSUES
                    SUMMARY REPORT




      tIlVICE$.




'0


     It"":m


OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS
                                       AUGUST 1990
  SYMPOSIUM ON DRUG UTILIZATION
         REVIEW ISSUES
                    SUMMARY REPORT




                     Richard P. Kusserow
                    INSPECTOR GENERAL




OEI- 01-89- 89010                          AUGUST 1990
                       SYMPOSIUM PRESENTERS€


Dr. Jerome Avorn
      Associate Professor
             Harvard Medical School
     Director€
            Program for the Analysis of Clinical Strategies€


Dr. Jerry Gurwitz
      Instructor in Medicine,
             Harvard Medical School



Dr. Charles Hepler
     Chairman€
           Department of Pharmacy Health Care Administration€
            University of Florida



Calvin Knowlton
     Associate Professor
            Philadelphia College of Pharmacy€
     President€
            Amherst Pharmacy



Dr. Wayne Ray
     Director€
            Department of Pharmacoepidemiology,
            Vanderbilt University School of Medicine




                                                                Moderator€
                                                                                                   ..............
                    . . . . . . . . . . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . .




                             TABLE OF CONTENTS


Prescribing For The Elderly And Nursing Home Use. .

Medication Prescribing And Utilzation In The Nursing Home:
Literature Review

Preventing Drug- Related Morbidity

Intervention Opportunities In Community Pharmacy Practice

Computerized Databases For Educational Drug Utilzation Review. . .
Policy And Practice Recommendations For Drug Ut-.ization Review. .

Research Questions Identified In The Symposium
On Drug Utiization Review                                                                                                        . 19
                                     SUMMARY REPORT

The idea for this symposium began in mid- l989 when the Office of the Inspector General
published a report on drg utilization review (DUR) and the Medicare Catastrophic Coverage
Act. This report considered a number of issues:

            mismedication problems among the elderly;

            the gaps in the health care system that affect mismedication; and

            initiatives the Administration and the Congress could take to address some of those
            problems.

When the original DUR report was released, it became clear that it identified several very
complex problems. This symposium represented an attempt to expand on thos' issues and to
bring together scientists, practitioners, and policymakers to pursue these issues further.

    Prescribing For The Elderly And Nursing Home Use

Dr. Jerr Gurwitz of Harvard Medical School began the symposium with a discussion from
the physicians ' perspective of the unique aspects of prescribing for the elderly. He pointed out
that pharacotherapy is perhaps the single most important medical intervention in the care of
the elderly, and its proper performance requires a special understanding of the changes in
physiology and pharmacology that occur with aging. Cross-sectional and longitudinal studies
involving community- dwelling populations indicate that increasing age is often accompanied
by reductions in the physiologic reserve of many organ systems , reductions that are separate
from the effects of disease. The ability of an organism to maintain homeostasis in the face of
an external threat often depends upon the reserve capacity of the hear , the lungs , the kidneys,
the liver, etc. These changes have important implications for the biological basis of drug
effects in the elderly.



Pharacokinetics is most simply defined as what the body does to a drg. Changes in
pharacokinetics that occur with advancing age provide an important basis for concern about
adverse drug reactions (ADRs) in the old. For certain medications, drg distrbution can vary
importantly with advancing age. The volume of distrbution is the theoretical space in a given
patient that is available for a paricular drug to occupy. An age-related increase in body fat at
the expense of muscle can lead to a greater volume of distrbution in older patients for some
medications. These changes are more prominent for drgs like diazepam and flurazepam
highly- lipid soluble benzodiazepines prescribed for anxiety and insomnia.

Pharacodynamics is the study of the. sensitivity of the organism            o a drg. The aging process
appears to be associated with an 
 increase       in the sensitivity to many medications commonly
prescribed to the elderly. Changes in pharmacodynamics, together with age-related changes in
pharacokinetics, could         well be expected to place the elderly patient at some increased risk
for ADRs.

A few studies suggest a trend toward increasing risk of ADRs with advancing age, although
this conclusion is open to question because none of the reviewed investigations controlled f0f
potentially important covarates including clinical status, length of hospitalization, and
number of medications taen concurrently. Findings do support , however, an obvious
association between the number of drgs taken concurrently and the risk of ADRs. More
importantly, the number of drugs that a patient is receiving is directly related to the number of
coexisting diseases.

The diagnosis of drg- induced illness in elderly patients is frequently complicated by the
tendency by patients, families, and even physicians to mislabel many symptoms as signs of
 just growing old. " One maneuver with very useful diagnostic as well as therapeutic potential
is the " therapeutic untral" of a medication of dubious value that is currently in a patier;r
regimen. Older patients are at risk of accumulating layers and layers of drug therapy as they
move through time. Medications used for symptomatic relief (e. , of insomnia) are fairly easy
to " prune " as their careful removal does not put the patient at significant medical risk.

More challenging is the reassessment of medications that may be vital to the patient s regimen
or may be presenting the risk of toxicity with no therapeutic benefit , such as digoxin
quinidine , thiazides , antihypertensives, and anticonvulsants. Some clinicians may argue that if
patients are stable and in no overt distress , it is too risky to change their regimen by removing
drugs that may not be needed. However, it is often not appreciated that any medication that
has the potential for toxicity with no continuing indication can represent a " time bomb" to a
patient.

The available evidence suggests some useful questions which physicians should use far more
often concerning drgs prescribed for an older patient:

            Can I avoid using a drug here?

            Could   stopping    a medication help with the patient s symptoms?

            Is this the lowest feasible dose?

            Does this drug have any particular side effects that are more likely to occur in an
            elderly patient?

Symposium paricipants agreed that it takes precise attention to the individual characteristics
of a patient in deciding on appropriate drug use. It is diffcult to establish simple age- based
rules or algorithms that will be useful in all cases. The types of guJdelines identified by Dr.
Gurwitz , however, can be of great value. The regulatory or policy implications are that there
must be a cooperative effort among those who are involved in science , regulation , and policy
                      , "





 formulation in the creation of such guidelines. Determining appropriate drg use also requires
 that particular attention be given to patient and family satisfaction with the medication as well
 as its clinical effectiveness.

 There are few firm , fast rules in gerianic pharacology, but following the very simple
 principle which says start low - go slow " may be the best rule a physician can use in
 prescribing medications for older patients     and even that is not a very rigorous principle.

 There is interest at the regulatory level in learing more about the effects of drgs on the
 elderly. Specifically, the National Institute on Aging and the FDA have expressed the concern
 that so few data are available on drug testing in elderly populations.

With increased consumer involvement in our society and our ability to communicate much
more thoroughly, there is an important opportunity to see to it that users of medications are
playing as active a role as possible in interacting with health care professionals. For example
there is at least one drug company that has started to produce ",ell designed , easy to read
large print statements of potential drug reactions, and they are providing them with
prescriptions. That is technically called for in FDA regulations , that a user has a right to ask
for information about adverse drg reactions, but , in fact , it is nOt actively provided in most
instances. Likewise , the American Association of Retired Persons (AARP) maintains an active
program of geriatrically-oriented patient education leaflets for members who use their
pharacy service. Increased interaction between the users of medications and professionals
involved in the prescribing and dispensing of drgs can make up for some of this deficit in
compliance.

While the FDA approves a drg for one indication , physicians are then free to use it for other
indications. The FDA does not approve it for one age group and then prohibit or prevent a
physician from using a drg tested in one age group on an age group which has not been
tested. The solution wil go wanting until the responsibility is placed on all pars of the drug
development , approval , and use process. Efficacy and toxicity in the elderly are often
determined primarly by whether clinicians and patients are using drgs intellgently.


    Medication Prescribing And Utiization In The Nursing Home: Literature Review

The nursing home setting is an area of particular concern for drg utilization review in the
elderly. A number of studies have suggested approaches designed to reduce inappropriate
prescribing and drg utilization in this environment. Therefore , a review of this literature was
prepared for this symposium by Jerry Avorn , M. , Jerry Gurwitz , M. , and Stephen B.
Soumerai , Sc. , of Harard Medical School. In contrast to the wide range of approaches
which have been evaluated and implemented in the hospital setting, interventions in the
nursing home have centered around consultant pharacist activities. Although these activities
are now Federally mandated in all nursing homes, their review found that much of the
evaluation of such programs has been methodologically inadequat , and there is little evidence
from adequately controlled studies to document their impact or cost-effectiveness. No data
exist on the quality of implementation of such consultant pharacist programs on a large
scale , to address the important question of whether nominal " paper compliance " producing a
minimum number of written recommendations per month is more common than actual impact
on quality of care. By contrast, face-to- face educational interventions directed at physicians
have been shown to be effective in improving prescribing for several medications.

Polypharacy is the rule rather than the exception in the nursing home. A 1976 study by the
Office of Long Term Care based on a sample of 3,458 nursing home patients reported an
average 6. l drgs per patient, with some patients receiving over 20 different medications.
There is compellng evidence to suggest that medications are frequently used inappropriately
in many nursing homes. A 1980 study by Ray         et al. reported that as nursing home practice size
increased , doctors were found to prescribe more antipsychotic medication per patient.
Antibiotics' are another class of medication whose utilization in the long-term care setting has
been evaluated. A possible consequence of the excessive use of antibiotics is the development
of increasingly virulent bacterial strains , forcing reliance on potentially more toxic and
expensive antibiotic regimens. Additionally, the underuse of potentially belleficial medications
represents another kind of problem in nursing home drg use.

The general lack of organized medical staff in nursing homes further impairs the ability to
institute educational programs or to enforce standards of drg usage in this setting. Since
approximately 50 percent of all medication orders for nursing home patients are written by the
physician with directions for PRN (take as needed) administration , the nursing staff, by
default , take responsibility for a substantial proportion of prescribing decisions. In addition
the bulk of direct care for nursing home patients is provided by nurses ' aides , who often have
little experience or formal trainIng, and who experience high turnover rates. The expectations
and demands of patients and their families must also be considered. The pressures exerted by
patients and family members both for and against the prescribing of many medications can be
enormous. In addition , a factor of paricular importance is the frequent inadequacy of staff
making it more likely that " chemical restraints " wil be applied rather than interpersonal
non- pharacologic solutions.


Approaches to Improving Drug Prescribing and Utilzation in the Nursing Home

Controlled Trials

Studies employing these research designs provide the opponunity to control for non- program
influences in the evaluation of a paricular nursing home intervention. The comparability of
the control impacts on the ability to generalize from the results of such studies.

Time- Series Studies

The essence of the time-series design is a frequently repeated periodic measurement in a
group or individual , with introduction of an intervention into this time series of measurements.
One- Group Pre- test/Post- test Design

Conclusions based on the results of such studies are open to question due to the lack of a
control group, the limited number of observations, and the associated difficulties in
controllng for confounding factors extraneous to the intervention being studied.

While drugs are often indispensable in the medical care of elderly nursing home patients , the
inappropriate use in this setting is of great concern. Medications can become a substitute for
careful diagnostic maneuvers and/or effective non- pharacologic therapies , increasing the
risk of serious adverse drg reactions in this already vulnerable population. In an era of cost
containment and rising drg costs, the overuse of medications can also divert resources from
more important purposes.

Findings

Although it is generally accepted that well- designed clinical trials of pharacologic
interventions should serve as the basis for rational medication prescribing, health care delivery
interventions are rarely subjected to the same quality of evaluation. Of the many research
designs employed in the review literature , only one utilized an adequate control group.
Further, the intervention being tested should be implemented in such a way that the influence
of extraneous factors on measured outcomes of interest is minimized. Finally, the " active
ingredient " of the intervention must clearly be defined. For example , the term " drug utilization
review " can mean different things, from a simple review of the physician order book to make
cenain that regulatory policies are being enforced , to scheduled face-to- face interactions with
medical and nursing staff employing sophisticated educational protocols.

Several other methodological issues were identified in the literature review conducted by Dr.
Avorn and colleagues. They are summarized below. Factors drving prescribing in the nursing
home are more complex than either the acute care hospital or outpatient settings , where
physicians are the predominant decisionmakers. These differences must be taken into account
in all regulatory or educational efforts. In measuring outcomes, if reported changes in
medication " orders " include PRN medications , which many patients never use , any
conclusions about the impact on actual drug utilization must be questioned. Reductions in
PRN medications are often reported to comprise a large proportion of the favorable effect of
intervention. However, many PRN orders are never administered. Programs to improve drug
utilization and prescribing in the nursing home must also be evaluated in economic terms,
ideally comprising a comparative analysis of at least two alternative programs in terms of both
their costs and consequences. The economic implications of an improvement in drg therapy
which reduces patients ' utilization of more expensive resources (e. , acute hospitals) must
also be considered.

Unfortunately, very few published studies have attempted to address the issue of clinical
outcomes resulting from changes in drug utilization in nursing home patients. Assessment of
clinical outcomes is essential for the complete evaluation of any pr.ogram designed to improve
medication prescribing and drug utilization. Examples of important clinical outcomes might
include: (1) changes in the incidence of adverse drg effects (overall or specific reactions)
following implementation of a drg utilization review program; (2) changes in the cognitive
behavioral , and functional status of nursing home patients associated with a program to
improve prescribing of psychoactive medications; and (3) changes in the incidence of falls
following a program designed to limit the occurrence of hypotensive episodes associated with
antihypertensive medications.

Implications for Future Research and Policy

(1)	   Little evidence currently exists with which to evaluate the effectiveness of the current
       nationally mandated program of DUR by consultant pharacists.

(2)    Facec.to- face educational interventions directed at physicians and focusing on principles
       of geriatric pharacology have been shown to be effective in improving prescribing to
       nursing home patients of selected medications.

(3)	   The prominent role played by the nurses and aides in the utilization of many other
       medications in this setting suggests that educational interventions must involve nursing
       staff.

(4)    Any study designed to evaluate the tre impact of intervention on drug Utilization must
       provide data concerning doses of medication administered to patients rather than merely
        ordered. "

(5)	   Greater attention must be' paid   to the actual clinical and economic outcomes of any such
       interventions.

New methods for improving drg prescribing and utilization must be developed and tested.
For example, computer-assisted feedback of therapeutic decisions has been shown to be
effective in improving care in the ambulatory setting; the technology is readily available to
incorporate such a strategy into the nursing home setting. However, widespread
implementation of any new intervention must be preceded by careful evaluation according to
rigorous standards of health services research , particularly in this vulnerable population.

Following presentation of the literature review, symposium paricipants addressed strategies
that should be employed in both institutional and ambulatory settings to improve the accuracy
of drug use in elderly patients. It was agreed that the doctor, pharacist , nurse , family
member, and patient must be involved in the following processes:

            Taking a very careful medication history     to get a feeling for what is going on in
            the complex patients, including use of over the counter (OTC) drugs. (In the
            nursing home this is somewhat more practical because OTC drugs are dispensed by
            the same people who dispense the prescription meds. That is not the case in
            outpatient care.
                                   - "                           , "





             Brown Bag " reviews         brown bag " has become a metaphor which came from
            having patients put all their medications in a brown bag to bring to the caregiver
            who would go over them and throwaway drugs that were outdated, abused, or not
            used intellgently. This process should be ongoing in the nursing home , and is
            critical to what ought to happen in drg regimen review in long- term care.

            Cautious withdrawal of all drgs with dubious indication: This advice sometimes
            causes controversy among physicians who may feel I've got a patient who has
            been on quinidine for the last 20 years. Either I don t remember why I put her on it
            or the doctor who put her on it has been dead for l5 years, but I'm reluctant to take
            her off and have an arhythmia occur. " However , Dr. A vorn argued that a cautious
            withdrawal is probably safer than having patients take potentially dangerous drugs
            if no one can figure out why they need them.

In  a program supported by the Harford Foundation , Dr. Avorn and colleagues developed an
educational intervention to reduce overuse of psychoactive drgs in the nursing home setting.
It consisted of four in-service training sessions for nurses; four in-service sessions for aides;
and three one-on-one visits with prescribing physicians in their offices by a pharmacist!
educator. Preliminary indications are that such an intervention can be effective in reducing
excessive use of sedative drgs in the nursing home.

Staffing is one of the major problems confronted in operating an educational intervention
program. What is needed is a nucleus that has the clinical expertise to define the areas that wil
be the subject of the educatiomil intervention, and knows enough about the use of computers
and evaluation techniques to identify the providers to be educated, as well as to evaluate the
effects of the program. The work done by such a skiled and highly motivated group must then
be translated into the everyday world of actual health care delivery systems.

Staffing within the nursing home is of critical importance. Unless more money is put into
improving staffing, problems wil be encountered in changing the prescribing of psychoactive
drugs. It is not necessarly an issue of the size of the staff, but rather the atmosphere in the
facility.

The consultant pharmacist is not fully utilized for retrospective drg utilization review by
long- term care (nursing home) facilities. Many consultant pharacists find themselves
charged with the responsibility of preparing a nursing home for a Medicaid inspection , but not
truly interacting with patients or with other professionals regarding patient-specific matters.
There is no standard of practice for the consultant pharacist; professional training is lacking
in geriatrc pharacology; very little is taught in American schools of pharmacy or medicine
about geriatrcs; and systematic instrction in the proper use of drgs is not getting proper
attention.
                                                                                      , "





It is possible the private sector wil get involved in drg utilization review before the Federal
Government enters it on a large scale. The concern for DUR in the private sector is coming
from several sources: employers who pay for drg benefits, insurance companies , and HMOs.

    Preventing Drug- Related      Morbidity


The symposium next turned to a discussion by C. Douglas Hepler, Ph. , of the University of
Florida regarding the role of the pharacist in preventing drug-related morbidity (DRM). Dr.
Hepler called attention to one estimate (Southwick) that places the cost of drg-related ilness
in the U. S. at around seven bilion dollars annually. By contrast therapeutic failure " is an
intermediate medical care outcome in which drug therapy does not secure the necessar result
in an acceptable time period. It can result in therapeutic substitution or the addition of new
therapy; the progress of disease; and the prolongation of symptoms and disability. Drug
ther:1 :fY can cause the appearance of new symptoms such as adverse drug reactions and side
effects, ct.-ug toxicity, or drug interactions with food or other drugs.



Drug-rl-, ated morbidity may be caused by a number of factors: inappropriate prescribing,
inappropriate delivery, inappropriate patient behavior, or inappropriate monitoring of drug
therapy. Unresolved drug-related problems may lead to drug-related morbidity, which , if
unresolved, may lead in turn to drug-related mortality.

A drg-related problem is a circumstance of drug treatment that actually or potentially
interferes with the patient
                          s experiencing an optimum outcome of medical care. Strand          el af.
(l989) have identified eight caregories of drug-related problems.

      The patient has a medical problem that requires drug therapy (a drg indication) but no
      drug has been prescribed for that indication.

      A drg indication exists but the wrong regimen has been ordered.

      A medical problem is being treated with too little of the correct drug (subtherapeUtic
      dose ).

      A medical problem exists as the result of a patient s not receiving the drug, e. , for
      pharaceutical , psychological , sociological , or economic reasons.

      The patient has a medical problem that is being treated with too much of the correct
      drug (toxicity).

     The patient has a medical problem that is the result of an adverse drug reaction or side
     effect.

     The patient has a medical problem that is the result of a drug- drug, drg- food , drug-
     laboratory interaction.
       The patient is taking a drg for no medically valid indication.

In order to prevent drg-related morbidity, the problem must be recognizable , the morbidity
must be foreseeable , and the cause(s) must be controllable. Deciding what is preventable
(recognizable , foreseeable , controllable) requires a standard of care. However, there is no
consensus standard of care for drg therapy. In addition , there is no consensus standard for the
drug use process. It is unsafe to assume that physicians, pharacists, and nurses somehow will
detect , prevent , and resolve drug- related problems. Monitoring is an especially weak point in
drug use , paricularly in ambulatory care.


Varous studies indicate the prevalence of DRM. However, there are significant
methodological problems with many of the DRM studies. They don t define the concept of
preventabiiity. To further understand preventable DRM requires: a standard of care for the
drug use process; epidemiological data regarding preventable DRM (applied standard of care);
and consensus or, imerpretation of the epidemiological data.

The pharacist can playa      much larger role in preventing, detecting, and resolving
drug-related problems. Pharacists    are suited by education , availability (Manasse , 1988), and
location in the drug use process. Some pharacists have already begun new functions related
to preventing DRM , under the names of " clinical pharacy " or " therapeutic monitoring.
Others call these functions " Prospective Drug Use Review. " The purpose of pharaceutical
care is to achieve definite outcomes that improve a patient s quality of life by means of
detecting, preventing, and resolving drg-related problems. Pharaceutical care should be
integrated with the other elements of health care, but the pharmacist accepts direct
responsibility for the quality o(that care.
The literature shows that some drug-related morbidity can be prevented, and that pharacists
can contribute significantly to achieving that goal. This wil require significant changes in the
philosophy and organization of the practices of many pharacists. The pharmacist must
recognize new purpose and responsibility; acquire additional competence; obtain resources
and develop relationships; and find rewards in the new practice.

The Food and Drug Administration assessment of the impact of adverse drug reactions is that
there are 27, 000 to 28, 000 reported adverse reactions annually, with hospitalization or death
resulting from 19 percent of the cases. However, these figures may be quite below what is
actually occurrng. Although good data on costs are lacking, it is possible that the figure could
reach four bilion dollars in terms of bearng the load for the treatment of the consequences of
drug-related disease. There is no systematic reporting for treatment failure , and that could
mean that the four bilion dollar figure is not really indicative of the problem , which could be
much larger than anticipated.

At present ,pharacists remain outside the medical " information loop. " They need to learn
how to tie information about drg use and the drug user together and relearn the idea of
focusing on individual patients. Pharacists should be held accou ntable for what they do and
evaluated for their ability to prevent drug-related morbidity. The profession might look to the
 Federal Government and agencies such as HCFA for standards of practice or training. Dr.
 Hepler stated that the mission of HCFA , however, is financing, and only very recently has it
 become involved in quality care issues. It is possible that the " Effectiveness Initiative
 developed by the Department of Health and Human Services to focus on outcomes in quality
 care , could be an indication of greater awareness at the Federal level.

 The responsibility for training, retraining, or resocializing pharacists might fall to the
 employer in the case of the thousands of pharacists who work for chain stores. But unless
 the employer is given some incentive or penalty for training or not training, cooperation will
 be minimal. One way the Government can help is by setting up demonstration projects. An
 advantage of demonstration projects is the fact that the effect on economic and clinical
 outcomes can be evaluated.

It might be advantageous to link the dispensing fee to counseling, especially at a time such as
now when robots and compUters art handling much of what was once the job of the
pharacist. A possible model might be that a dispensing fee is not paid when the function is
turned over to a computer or machine , but when the pharmacist takes time to counsel the
patient , whether the prescription is filled or not , a dispensing fee might be appropriate. No
matter what is done or how it is done , the pharmacist must have individual accountability in
the drug utilization review process, and the performance of individual pharmacists should be
tracked.

      Intervention Opportunities In Community Pharmacy Practice

The perspective of the community pharacist was analyzed by Calvin Knowlton , president of
Amherst Pharacy, Lumbenon , New Jersey. He argued that pharacists in community
pharacy practice, whether independent or chain settings, are slowly shifting their focus from
the drug product to the patient. Although community pharmacists have always been available
to respond to patient inquiries, until now their priority has been directed to the drug product.

 It has not been an easy task for community practitioners tb adopt a more proactive
patient-attention style , noted Mr. Knowlton. The change in priority has been an evolving
process, not an event. The newer pharacists seem to be nudging the profession to re-orient
its mission. Amidst the constraints of the commercial backdrop of the majority of community
pharacies and the highly technical nature of pharacy education , the pharacy
                                                                                   graduates of
the past decade are intent on moving the profession in a more humanistic direction. While
prescription or non- prescription drg products  are stil the mainstay and preeminent domain of
the practice, the patient-centered  approach apparently is more satisfying to contemporar
community pharacy practitioners. Patients taking multiple drgs from one or more
physicians need someone to monitor and intervene to reduce the chance for drg- drg
interactions and/or drug- disease state incompatibilities. Community pharmacists (if not
constrained by " management ) are increasingly welcoming the opportunity to fulfill the role
of outpatient   drug therapy monitors.
 Approximately l70   000 pharacists are currently practicing in traditional settings. These
 settings include: 50 000 chain pharacists; 75, 000 independent pharmacists; and 45 000
 hospital pharacists. The community pharacists (chain and independent) practice in
 approximately 50 000 pharacies and fil over l. 6 billion outpatient prescriptions annually. A
 varying number of these prescriptions are filed by mail-order pharacies (estimated to be
 about 2 percent).

Activities performed by community pharacists have changed to reflect more patient-oriented€
approaches. These include hypertension monitoring and screening, patient education regarding€
self-care testing equipment (such as glucose monitoring machines), and providing patient€
information or literature. Although community pharacists assert that drg distrbution€
requires over 50 percent of their time , some have stated that drg information and patient care€
activities encompass 25 percent of their time. Sixteen to l8 percent of community€
pharmacists ' time is devoted to management and/or business tasks. Many community€
pharacists practice a form of " hospital phdfmacy " within the community setting by serving
as the pharmacy provider and/or consultant to nearby nursing home facilities.

Perhaps the most important outcome of the evolving drg-to- patient     paradigm shift of focus
will be to encourage community !Jharacists to use judgmental intervention on behalf of (or
in conjunction with) patients. This opportunity exists both before and after filling a
prescription. Yet, this judgmental intervention is constrained by the lack of formal authority to
alter the prescription.

Prior to filing a prescription , c9mmunity pharmacists have an opportunity to bring the patient
into the decisionmaking process regarding certain aspects of the drg therapy. As the health
care infrastrcture continues to move in the direction of patient autonomy via the process of
informed consent (and away from the paternalistic model in which " the health care provider
knows all and wil decide for me ), pharacists could enable patients to select from a limited
menu of prescription drug therapy options. These include the use of generic substitution;
pharaceutical alternatives (e. , use of inexpensive short-acting vs. costly long-acting drgs);
therapeutic interchange (i. , when the pharacist contacts the physician and, on behalf of the
patient , requests a change in the prescription drug); the provision of smaller starter doses; or
the use of protocols , in which (for managed care settings) a pharmacist provides input
regarding cost-comparison data for treatment of a particular disease. Step-care protocol
developed with active physician input is an alternative , creative , prospective DUR method
which considers both quality of drg care and economy of drug care.

Community pharacists are able to help patients with prescription drug education (but formal
pedagogical , prescription drg education is also needed , staning in the elementary schools).
Nuances are plentiful and important but not always obvious; but prescription drgs can now
be demystified, standardized, and understandable. Some policy options embodying these
concepts are:

          require current Pharmacy and Therapeutics Committees in each nursing home to
          perform DUR (both prospective and retrospective);
             require all pharacies serving Medicaid patients (as a condition of participation) to
             perform prospective patient profie reviews;

             require all pharacies serving Medicaid patients to counsel patients on each new
             prescri;Jtion;

             policymakers and organizational decisionmakers ought to consider restoring the
             elasticity of the prescription drug market demand by retiring the fixed-dollar
             prescription deductible; and

            the Government should establish criteria to seek rebates directly from drug
            manufacturers based upon drug utilization for Medicaid patients.

 The profession of pharmacy is poised to contribute to enhance the quality and efficiency of
 medication usage in the country. Community pharmacists, panicularly, ought to be
 encouraged to apply their cognitive resources to improve the drug distribution function which
 they have responsibly discharged. While pressures from witain the profession nudge
 practitioners to adopt a stronger patient-centered standard, external mandates from the public
 sector decisionmakers would be a favorable catalyst for change.

 In the discussion following the presentation of Mr. Knowlton s paper, symposium paricipants
 indicated that until the 1950' s,
                                 pharacists were compounding and recommending drugs for
 patients but with the passage of the Durham- Humphrey legislation in 1952 , pharacists were
 constrained from prescribing or' getting involved with treatment decisions regarding the drug
 products on their shelf. That constraint now has put them in a situation in the community
 pharacy of possible termnal displacement as they find themselves just " counting, pouring,
 licking, and sticking.

An interim step occurred in the early 70' s when capitation money came from the Government
into the colleges of pharacy. There was money and no shortage of students. Money was
supplied to local hospitals and pharmacy staff people and faculty people were placed in local
hospitals as teachers, in par giving birth to the idea of hospital clinical pharmacy. During that
time a new degree was created for those people entering pharmacy. Also , as a result of
Medicare, the consultant pharacist s role evolved in the nursing home setting. Through all of
this, however, there has not been any focus on community pharmacy. More and more
pharmacists are going to work for chains - however, chain pharmacies fil less that
percent of the prescriptions that are filed in this countr. Most prescriptions are stil filled in
independent pharacies.

  Statistics also show that 70 percent of practicing pharacists are happy with their jobs
  although happiness is not the most important indicator of their performance. There should be
. more focus on the question " Are pharacists satisfied with providing suboptimal service
  when they know they are capable of doing much more?" There are some internal mandates for
 change in pharacies. A recent conference on "Pharmacy in the Twenty- first Century
  identified three key areas of need: the pharacy in the community has to demonstrate its
  value; higher expectations are needed in the practice of pharacy; and there should be
  standards of care of pharacy practice. In addition to these needs, nursing homes should be
  urged to gear up their therapeutics committees and include mandatory prospective and
  retrospective drug utilization review on their agenda with pharacist input on those
  committees.

      Computerized Databases For Educational Drug Utilzation Review

 In the final presentation , Wayne A. Ray, Ph. , of Vanderbilt University, discussed the use of
 computerized databases for educational drug utilization review. Educational drg utilization
 review , which works by educating prescribers and other caregivers, can be an important
 component of the drug utilization review program. The advantages of this method are that it is
 minimally intrusive upon the physician- patient relationship; it improves the physician
 knowledge base and may thus l1ave benefits that accrue to persons other than those in the
 target population or receiving the target drug; and it has good provider acceptance. Much of
 the research in the field of educational drg utilization review has employed computerized
 databases. Computerized medical care databases frequently originate from systems for
 providing medical care to a defined population in which pruviders are reimbursed by a single
 third pary. For administrative reasons , these systems often maintain files that identify the
 persons belonging to the system and contain brief summaries of the medical care the members
 receive. These files include the enrollment fie , the pharmacy fie , the provider fie, and
 several other fies.


 Enrollment fie. The enrollment file enumerates persons who are members of the defined
 population.

 Pharmacy fie. The most crucial file for the purposes of drg utilization review is the
 pharmacy file. This fie includes records of prescriptions filled at the pharmacy in outpatient
 practice.

 Provider fie. The provider fie enumerates the physicians who provide care for the members
 of the defined population.

  The first step in drug utilization review is specification of the therapeutic area of interest. This
  requires selection of the drg or group of drgs for which prescribing is to be improved. The
  next step in a program of educational drg utilization review is the identification of those
  physicians or other caregivers who are to receive the educational program. To be cost
  effective, drg utilization review should focus on those providers who frequently use the
  target drgs. Given the provider group to receive the educational program , the next step is the
  intervention , or presentation of the educational materials to the providers. The only method
. that has been proven to be effective is a personal visit. Evaluation is an essential component of
  educational drg utilization review. It is needed to assess the effica,cy of the educational
   program and to define subgroups of nonrespondent providers for whom different methods
   may be required.

   The detailed information on the use of prescription medications in a defined population is the
   primar strength of computerized databases for educational drug utilization review. This
   permts one to identify high volume prescribers of target drgs
                                                                    , who can then be selected to
   receive the educational intervention. The availability of this database then
  economical evaluation of intervention efficacy.                                permts rapid and

   The key limitation of computerized databases is the lack of clinical detail that would permit
   more precise definition of substandard prescribing. For example
   hypokalemia. With appropriate monitoring of serum potassium , some diuretics may induce
                                                                   , this adverse effect can be
  prevented by provision of supplemental pOtassium. However
                                                                , all patients receiving diuretics
  certainly do not need potassium supplements. With most computerized databases, there is no
  way to identify patients who should have received potassium supplement
                                                                                    did not , and thus
  there is no direct way to identify physicians whose prescribing in this areabUt
                                                                                is substandard.

 Educational drug utilization review creates a better environment for both the patient ard the
 physician. The changes that are created in the physician
                                                           s knowledge base wil have wider
 effects than the specific program in which he or she is involved. For those reasons
 educational drg utilization review should be a very large part of
 programming. It has been proven to work in a research setting. The drg  utilization
                                                                      challenge   nowreview
                                                                                       is to find
 out how to implement it in the real world    the world of Medicaid programs run by people
 who have quite a few pressures on what they do in the realm of health maintenance
 organizations.

  The DUR provisions of the Catastrophic Care statute placed too much emphasis on a very
 limited display of a few prescriptions in a pharmacist
                                                        s office and the idea that from that one
 would be able to markedly improve prescribing. The emphasis could have been shifted more
 to educational drug utilization review. There may be a role for compUterized-
                                                                                 based screening,
 but it should not be the centerpiece of a DUR program. In screening for drug interactions
 there are a lot of programs oUt there that generate many false positives.

In the proposed implementation stage of the Catastrophic Care drug benefit, HCFA took a
very mechanized approach. The intent of the law might have been that DUR should occur at
the pharacist level , as well as other points in the process. The use of computerized screens to
identify " prescribing problems " was not written into the Catastrophic Care Act; rather
HCFA' s proposed method of complying with its view of Congressional intent. However      , it was
pharacists in the countr have compUterized profiing systems                                 , most
sophisticated than the system HCFA proposed.
                                                                   in place now that are far  more

Following Dr. Ray s presentation , participants nOted that while the educational approach is
good , for the individual patient at the time the patient is beginning therapy, the educational
approach may be too late. The combination of the
and collaborating with the physician could offer something immediate forpharaceutical
                                                      pharacist providing
                                                                                             care
                                                                              the patient, while
the educational approach is designed to make longer-term changes in physicians ' prescribing
behavior. Physician education and pharaceutical care don t compete , but there has been
tension in this debate throughout the last year over the relative value of each approach.

The Catastrophic Care Act clearly called for prospective review and also called for an
educational program. What is needed is a comprehensive and systematic review of therapy
not just what can be seen from a profie. The patient needs to be consulted and the
professional must get integrated into the medical database in order to prevent drug-related
morbidity. Although the law did attempt to speak to educational programs, it was in the
implementation phase that problems arose.

There is a major deficit in medical education in therapeutics , and this deficit is amplified in
the area of geriatrics. What can be done in the wake of this deficit is to catch the errors and
clean up after them every time they occur, or since the same people are making the errors over
and over it would be better in the long TUn to tr to educate them to do it right.

   Policy And Practice Recommendations For Drug Utilization Review

On day two, the symposium participants re-convened for a panel discussion with active
involvement of all attendees. The panel was given a twofold task by Dr. Avorn , who chaired
the discussion:

           Par one     Given that in the coming decade there wil be more governmental
          payment for medica ions used by the elderly; given that there already is such
          payment at the non- Federal level through various State programs; given that even
          if there weren t such payment, extensive medication use by the elderly would stil
          present major questions of health care delivery and medical care expenditures; as
          we gear up for the next set of bills and programs and consider those already in
          place , what would be the model DUR system those around the table would like to
           see?

          Part two - What research needs must be addressed in order for us to know more
          about DUR and how it ought to be performed, and how do we want to guide those
          efforts in the next several years?

There are many aspects of how DUR systems work about which we do not know. The list of
research issues is extensive:

          We know that educ itional drg utilization review programs work in small-scale
          settings run by academically oriented groups. Wil they work as well when they are
          run on a larger scale?
           We need to study educational drg utilization review in more diffcult    settings   and
           for more difficult clinical problems, such as the nursing home and the use of
           psychotropic drugs.

           Does the widely promoted computerized feedback DUR model actually work?

           What is the role of the pharacist in the outpatient setting?

Paricipants noted that peer review organizations (PROs) could prove to be one mechanism for
addressing drg utilization review. However, this would be appropriate only if the
Government is wiling to allocate funds and resources to the task. PROs could argue that
although this is very important , there are other pars of the mandate that they cannot fully
complete at this point because they do not have enough resources.

GAO has done a series of studies looking at the activity of the PROs with respect to drug
utilization review. Two questions emerged: (l) Do PROs have the expertise , manpower, and
access to data that would permit them to do appropriate drg utilization reviews? (2) What is
the advantage? This could come to a head in some years ahead as the PROs are required to
move into outpatient care. Suddenly, PROs could find themselves heavily involved with the
appropriateness of prescribing practices.

A loose nOtion of managed care is becoming prominent in health care. It is implemented in
very different ways in different systems. What is needed is a standard, whether it is formulated
by the Government or a public-minded private non- profit. We need a model of drug utilization
review that takes into account all the operational aspects of making a DUR system work. The
marketplace does not necessarly come up with the right sort of utilization management tools.
If we are to have strategies for the dissemination of this kind of innovation , they have to be
multi- pronged. They have to include some Government demonstrations and conferences with
public and private providers who are doing DUR in an intelligent and scientific way.€

The whole intent ofDUR should not be seen merely as " error pick-ups, " but as an educational
activity. However, in a managed care environment , where there are finite resources, the
bottom line is always a factor. In the for- profit sector money is ultimately the priority, and
there is concern that in some managed care organizations , money wil be the entire focus.
There is an additional problem to consider when examining the question of managed care: the
group that probably deserves the greatest priority is the debilitated elderly, who are receiving
the most medication and are probably the most at risk for adverse drg effects. The debilitated
elderly are not moving into these managed care situations in large numbers.

The Feedback DUR Model , which is based on retrospective reviews of pharaceutical
interventions, was not represented at the symposium. It has been dismissed as not being
rigorous, although it is possibly the most common kind of DUR. The Feedback DUR Model is
not represented in the body of well done , well controlled studies. here appears to be no study
 that meets the standards of scientific research which shows that it works. However, since it
 seems to be such a popular model , it should be tested more extensively.

 Dr. Avorn presented three models to ilustrate the limitations and strengths of the way
 academia operates , the way the private sector does things, and the Government approach.
 Because each has problems, consideration should be given to taing the best parts of each and
 bringing them together in future studies of DUR:

            Academic approach        There is enormous attention to methods. This prolongs the
            time necessary to perform and evaluate a project , and it is done on a small scale
            because that is the only way one can do something that carefully. Often the
            intervention is performed without attention to its cost-effectiveness. Detailed
            evaluations eventually emerge.

            Government approach       For political reasons it is very difficult to do a
            randomized controlled trial: one cannot say that some States or that somt. older
            people are going to get DUR and some are not. Programs are implemented on a
            massive scale , but program conceptualization , design , and evaluation are often the
            imperfect products of consensus and political necessity.

            Prvate sector approach      Interventions are brought to market rapidly, but the
            evaluation component is often neglected, and in the case of some of the examples
            presented , more than neglected. In some instances, it may even be scrupulously
            avoided for reasons   hat have to do with commercial interests. Efficiency and
            cost-effectiveness are well tracked, but " bottom line " considerations may
            overwhelm those of quality if the two conflict.

 A question which needs to be examined is: " Is there a way that we could take the carefulness
 of the academic approach and couple it with the operational abilities of the Government
 approach and the zeal of the private sector approach to produce a well-evaluated public or
 private product - a product that lends itself to a definition of what it actually does and what
 its outcome is?" There is a real opportunity here to marr some of the academic and the
 operational in DUR with the data open to everybody. There now exists a window of time and
 opportunity. Knowing that DUR wil come up again in a few years , decisions should be made
 on how best to take advantage of this window.

  Much can also be done in terms of paricipation by pharacists. There ar some things that
  the community pharacist could do as an individual , drawing on an extensive body of
  knowledge in pharmacy. Pharacy students generally start out wanting to perfornl
  patient-related services. They are taught that in school but when they enter the real world, they
  frequently are shocked by policies and procedures of places where they go to work , and they
. cannot implement much of what they have learned. One of the ways to empower phamlacists
  is for them to have their own pharmacy practices, which are likelYJo be patient-oriented.
An avenue available through Medicaid for DUR is claims data. They have been used for€
research in the past. Yet claims data are often available with a very long lead-time, which€
could result in retrospective review two or three years later. There are real research€
possibilities with data which can be used as a key into the system once it is determined what€
those claims data mean and how they can best be used.€

It wil be unfortunate if Government doesn t tae some leadership on DUR issues, because
without some initiative coming from the center, other forces wil make DUR less significant.
One has to wonder why the knowledge base which has been developed in hospitals with
Pharacy and Therapeutics Committees cannot be brought into some type of educational
intervention committee on an outpatient basis , where physicians and pharacists get together
for ongoing DUR discussions.

It is possible to consider other laboratories to tr out drug utilization review and education.€
The Public Health Service supports some 600 community and migrant health centers around€
the countr. One of the advantages of doing research in the system is having a complete and€
long-term profile of drug use. Resources are built into the system for continuing education.€
Another is the Indian Health Service, which provides a billon dollars a year in health care€
coverage. They are atypical because of the population served, but again it is essentially a€
closed provider system.



We are in a primitive state concerning prospective DUR and we are not even sure what the
name of it should be. That is because we are not yet in total agreement about what the process
really is. One of the things that has been very helpful is all the new thoughts that were
introduced in this symposium on exactly what the process is and what the goal is        the goal
is taking better care of elderly people and not wasting anybody     s money in the process. There
are a lot of ways that can be done. Some of them may involve computers, some of them may
not. Some of them may involve steps that happen before the dispensing and before the
prescribing, but some of them don

Despite the nearly- implemented program that would have accompanied Catastrophic
Coverage, we should not be so sure of ourselves that we know all there is to know about€
DUR. We wil need to spend the next several years gearing up in as many different ways as€
possible. Dr. Avorn concluded the discussion by nOting that whether or not one believes in the
marketplace of commerce in shaping health care delivery, the marketplace of ideas works,
even if it works slowly. If a given intervention or program isn t working, sooner or later€
people are going to walk away from it. We need to tr as many options as we can and then€
perhaps, by mid- decade, we wil have objective data on what works and what does not in€
DUR on which to base large-scale programs.€
                       RESEARCH QUESTIONS IDENTIFIED

                IN THE SYMPOSIUM ON DRUG UTILIZATION REVIEW


                                 Prepared by Jerry A vorn, M.

 The fact that the symposium brought together policymakers, regulators, geriatrcians,
 pharacists, health services researchers, and a number of other individuals from many sectors
 of the health care delivery system made it possible to approach the topic of
                                                                              drg utilization
 review for the elderly in a multidisciplinary way, and led to a number of provocative
 discussions that might otherwise never have taken place. A number of themes emerged as
 areas in need of further research for health policy planning and optimal patient care. These are
 summarzed briefly below:

       Several approaches exist to drug utilization review, but nOt all of them have been
       subjected to rigorous and methodologically acceptable evaluation. Systematic studies
       should be conducted of each of the modalities listed below considering outcomes that
       include both economic measures (cost of drgs as well as total cost of medical care) and
       clinical outcomes (quality of prescribing, frequency of adverse effects, and patient
       satisfaction). Because of the importance of the issue at hand , these must be conducted in
       a randomized controlled format if the results are to be of maximum utility.

       a.    consultant pharmacist services, as currently mandated for long-term care facilities;

      b. 	   retrospective compute based screening of prescriptions with feedback
                                                                                  of the
             printouts thus generated to physicians;

      c. 	   proactive face-to-face education of physicians concerning proper medication use
               academic detailing

      d.     concurrent computer screening of prescriptions at the pharmacy prior   to dispensing.

Of these, only (c) has been subjected to careful study in the recommended manner.

     Is it feasible for the community- based pharacist to engage in more effective drug
     utilzation review, and if so how can this be facilitated? Much controversy exists
     concerning the actual and potential utility of having typical community-
                                                                                based
     pharacists engage in evaluations of drg regimens
                                                           , taking steps to improve them when
     necessar. In such studies , particular attention should be devoted to the issue of
     economic incentives , including both the need to fill large numbers of prescriptions in
     many commercial settings , as well as the question of what services are or should be
     provided in exchange for the currntly automatic dispensing fee.
With the inevitable automation of prescription data and other health care claims data
what is the optimal approach to capturing and linking information in order to facilitate
drug utilization review , parcularly for the elderly? Specifically,

a.     What data elements should be collected?

b. 	    What linkages between prescription data and clinical data are appropriate and
       feasible?

c.     To whom should such information be made available?

d. 	   What screening procedures should be used to identif    cases in need of drug
       utilzation   review, and to what use should such information be put once it has been
       processed?

The current U. S. health care system offers a large number of settings in which
innovative drg utilization review strategies could be pilot tested in a careful manner
before they are mandated nationally. These include the varous State Medicaid
programs, State pharacy assistance for the elderly programs, health maintenance
organizations, private insurers , professional review organizations, the Veterans
Adminstration , the Deparment of Defense, health care systems, and numerous smaller
HHS-supported health care delivery systems, among others. How can experimentation
be encouraged in these settings to inform future policy decisions?

Considerable gaps stil exist in our knowledge of the scientific basis for proper drg use
in the elderly. While research continues in the areas of health care delivery outlined
above , parallel research must be conducted, ideally through the National Institute on
Aging, on the pharacological basis of the recommendations that are to be
implemented in any drug utilization review system. This would include more research
on the pharacokinetics and pharacodynamics of commonly used medication in the
aged, appropriate dosing adjusted for normal aging and for frail geriatrc patients, and
(through collaboration with the Food and Drug Administrtion) systematic post-market
surveilance to help identify the magnitude of and risk factors for adverse effects of
concern in an older population.€
